IN THE
SUPREME COURT OF THE UNITED STATES

Supreme Court, U.S.
FILED

DEC M 2020
OFFICE OF THE CLERK

STACIA O’NEIL
Petitioner,
v.
MARISA BERQUIST,
COMMONWEALTH MEDIATION & CONCILIATION, INC.,
TRAVELERS INDEMNITY COMPANY OF CONNECTICUT

Respondents.
ON PETITION FOR A WRIT OF CERTIORARI
TO THE COMMONWEALTH OF MASSACHUSETTS
SUPREME JUDICIAL COURT

Petition for a Writ of Certiorari

STACIA O’NEIL
24 Milbern Avenue
Hampton, NH 03842
staciaoneil@qmail.com
603-396-9832

2

QUESTIONS PRESENTED FOR REVIEW
• Whether The Supreme Court of the State of Massachusetts denied the Petitioner Due
Process of Law under the 14th Amendment, when it denied a timely filed Application
For Further Appellate Review in a matter where the Petitioner did not receive Due
Process in an Arbitration matter?
• Whether the Supreme Court of the State of Massachusetts incorrectly applied the State
of Massachusetts’ Uniform Arbitration Act for Commercial Disputes when it denied a
timely filed Application For Further Appellate Review in a matter where the Petitioner
did not receive Due Process in an Arbitration matter?

3

LIST OF PARTIES
The caption contains the names of all of the parties to the proceedings and they are
also listed below:
1) STACIA O’NEIL, Petitioner;
2) MARISA BERQUIST, Respondent;
3) COMMONWEALTH MEDIATION & CONCILIATION, INC., Respondent;
4) TRAVELERS INDEMNITY COMPANY OF CONNECTICUT, Respondent;

4

TABLE OF CONTENTS
QUESTIONS PRESENTED FOR REVIEW

2

LIST OF PARTIES

3

TABLE OF CONTENTS

4

TABLE OF APPENDICES

5

TABLE OF AUTHORITIES

6

PETITION FOR A WRIT OF CERTIORARI

1

OPINIONS BELOW

1

JURISDICTION

1

CONSTITUTIONAL PROVISIONS INVOLVED

1

STATEMENT OF THE CASE

1

REASONS FOR GRANTING THE WRIT

3

THE ACTIONS OF THE COURT IN DENYING THE APPLICATION FOR FURTHER REVIEW
VIOLATED THE DUE PROCESS RIGHTS OF THE PETITIONER.
3
CONCLUSION

4

5

TABLE OF APPENDICES
Commonwealth of Massachusetts Supreme Judicial Court Order dated October 1, 2020
APPENDIX A
Application For Further Review that was filed in the Commonwealth of Massachusetts
Supreme Judicial Court

APPENDIX B

6

TABLE OF AUTHORITIES
Cases
At & T Mobility LLC v. Concepcion. 131 S. Ct. 1740 (2011)

3

Bd. of Educ. of Carlsbad v. Harrell. 882 P. 2d 511 (New Mexico Supreme Court 4
1994)
Concrete Pipe & Products of Cal., Inc, v. Construction Laborers Pension Trust for 3
Southern Cal., 508 U.S. 602 (1993)
Hall Street Associates. LLC v. Mattel. Inc. 128 S. Ct. 1296 (2008)
Pension Benefit Guaranty Corporation v. RA Gray & Co.. 467 US 717 (1984)

4
3

Statutes
Federal Arbitration Act, 9 U.S.C. § 1 et seq.

4

Uniform Arbitration Act for Commercial Disputes, G.L. c. 251

2

Uniform Arbitration Act for Commercial Disputes, G.L. c. 251, §12(b)

2

Rules
Supreme Court Rule 13

1

Mass. R. App. p. 27.1

2

Other Authorities
Arbitral Justice: The Demise of Due Process In American Law,
Penn State Law eLibrary, by Thomas E. Carbonneau (1995)
https://elibrary.law.psu.edu/cgi/viewcontent.cgi?article=1249&context=fac_works

3

7

PETITION FOR A WRIT OF CERTIORARI
OPINIONS BELOW

Commonwealth of Massachusetts Supreme Judicial Court Order dated October 1
2020.

JURISDICTION
This Petition is timely as pursuant to Supreme Court Rule 13, Review On Certiorari,
Time For Petitioning, the time to file a Petition For a Writ of Certiorari runs from the date of
entry of the judgment or order sought to be reviewed. This Petition is being filed by the 90 day
deadline after the October 1, 2020 Order listed above.

CONSTITUTIONAL PROVISIONS INVOLVED
This case involves the 14th Amendment of the U.S. Constitution.
STATEMENT OF THE CASE
1.

This matter involves an ongoing dispute as to the allocation of settlement funds

and an action that was filed below by Petitioner, STACIA O’NEIL (“Ms. O’Neil” or “Petitioner”)
seeking to vacate an arbitration award and a subsequent appeal of a Summary Judgment that
was entered against Ms. O’Neil.
2.

The appeals court upheld the Summary Judgment and this is an application for

further appellate review.
3.

This matter involves a car collision wherein Ms. O’Neil was a passenger in an

automobile driven by Respondent, Marissa Berquist (“Ms. Berquist”) and at issue was a
settlement amount and a subsequent arbitration that resulted in an amount of the settlement
being awarded to Ms. O’Neil and another amount being awarded to Ms. Berquist.

8

4.

At issue in the ongoing appeals was language in the settlement agreement that

provided that any disputes between Ms. Berquist and Ms. O’Neil would be subject to
arbitration.
5.

Ms. Berquist and Ms. O’Neil had a dispute as to how much of the settlement

amount should go to each of them and on March 22, 2018, there was an arbitration award
that awarded Ms. Berquist $900,000 and Ms. O’Neil only $76,176.
6.

It is not in dispute that the settlement agreement provided the allocation of the

settlement funds would be subject to arbitration, however it is not clear that the arbitration was
properly conducted.
7.

Ms. O’Neil brought an action seeking to vacate the arbitration award and the

Superior Court judge granted a Summary Judgment by the Defendant, Ms. Berquist, and
concluded that Ms. O’Neil’s claims were untimely under the Uniform Arbitration Act for
Commercial Disputes, G.L. c. 251 (the “Act”).
8.

The appeals court upheld the Summary Judgment and pursuant to Mass. R.

App. P. 27.1, Ms. O’Neil respectfully requested that the Commonwealth of Massachusetts
Supreme Judicial Courtgrant further appellate review of the Appeals Court’s opinion issued on
June 2, 2020.
9.

The Commonwealth of Massachusetts Supreme Judicial Court issued an Order

dated October 1, 2020, which denied the application for further review.
10.

This Petition seeks a writ as to that Order.

REASONS FOR GRANTING THE WRIT
The issue of how arbitrations are conducted is of vital importance to the judiciary, as
more and more disputes are referred to arbitration.

9

I.

THE ACTIONS OF THE COURT IN DENYING THE APPLICATION FOR FURTHER
REVIEW VIOLATED THE DUE PROCESS RIGHTS OF THE PETITIONER.

The issue of Due Process in Arbitrations was addressed in the case of At & T Mobility
LLC v. Concepcion. 131 S. Ct. 1740 (2011), where the Supreme Court set forth that a party
should be entitled to due process rights in an arbitration.
In the case of Concrete Pipe & Products of Cal., Inc, v. Construction Laborers Pension
Trust for Southern Cal., 508 U.S. 602 (1993), the Supreme Court set forth that the potential of
due process problems that can arise when an arbitrator is not neutral.
In the case of Pension Benefit Guaranty Corporation v. RA Gray & Co., 467 US 717
(1984), the issue was whether or not an arbitration had violated a parties Due Process Rights.
These cases are cited to demonstrate that Due Process is an issue that should be
considered in Arbitrations.
As far back as 1995, there were issues with the demise of Due Process as it relates to
Arbitrations and this as set forth in a 1995 law review article from the Penn State Law
eLibrary and it can be found at: Arbitral Justice: The Demise of Due Process In American
Law,

Penn

State

Law

eLibrary,

by

Thomas

E.

Carbonneau

(1995)

https://elibrarv.law.psu.edu/cqi/viewcontent.cqi?article=1249&context=fac works
Mr. Carbonneau was very clear that in 1995, “the idea of nonjudicial dispute resolution,
and the recourse to arbitral adjudication in particular, has gained substantial standing the the
U.S. legal system in the last ten to fifteen years. Owing largely to the holdings of the U.S.
Supreme Court, arbitration law and procedure have emerged from the obscurity of
specialized practice and entered the adjudicatory mainstream.”
It was held in the case of Bd. of Educ. of Carlsbad v. Harrell. 882 P. 2d 511 (New
Mexico Supreme Court 1994) that compulsory arbitration must comport with due process.

10

In the case of Hall Street Associates. LLC v. Mattel, Inc. 128 S. Ct. 1296 (2008), the
U.S. Supreme Court held that the Federal Arbitration Act, 9 U.S.C. § 1 et seq. does allow a
court to review an arbitration award based on common law, which would indicate that Due
Process is an element that can be reviewed on appeal.

CONCLUSION
The petition for writ of certiorari should be granted for the foregoing reasons.
DATED this

day of

2020.
/s/Stacia O’Neil
STACIA O’NEIL
24 Milbern Avenue
Hampton, NH 03842

